No. 20-366
INTHE

&uprtmt Court of tbt Qtnittb &tatts
DONALD J. TRUMP,
President of the United States, et al,
Appellants,
V.

STATE OF NEW YORK,

et al.,
Appellees.

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF NEW YORK

BRIEF FOR STATE OF NEW YORK
AND OTHER GOVERNMENT .APPELLEES

CERTIFICATE OF COMPLIANCE

AB required by Supreme Court Rule 33.l(h), I certify that the document contains

12,845 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 16, 2020.

Wilson-Epes Printing Co., Inc.

